     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL


                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

January 31, 2011

Report Number: A-04-09-04038

Mr. Lanier M. Cansler
Secretary
North Carolina Department of Health and Human Services
2001 Mail Service Center
Raleigh, NC 27699-2001

Dear Mr. Cansler:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Part A Bad Debts at Broughton Hospital
for Fiscal Year Ended June 30, 2005. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through email at
Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-09-04038 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Lanier M. Cansler


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health & Human Services

               OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF MEDICARE PART A BAD 

DEBTS AT BROUGHTON HOSPITAL FOR 

 FISCAL YEAR ENDED JUNE 30, 2005 





                        Daniel R. Levinson

                         Inspector General 


                          January 2011 

                          A-04-09-04038 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers the Federal Medicare program and
provides Federal oversight of State Medicaid programs. CMS contracts with Medicare fiscal
intermediaries and administrative contractors to, among other things, process and pay claims
submitted by Medicare providers. Fiscal intermediary and Medicare administrative contractor
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Fiscal intermediaries and Medicare administrative
contractors use the Medicare cost report for final settlement of Medicare reimbursement with
providers.

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries should
share in defraying the costs of inpatient care through paying various deductibles and coinsurance
amounts. When Medicare patients do not pay these deductibles and coinsurance amounts,
hospitals incur Medicare bad debts. Provided these Medicare bad debts meet Medicare
reimbursement criteria, they are reimbursable on a hospital’s annual Medicare cost report.

Federal regulations (42 CFR § 413.89(e)) provide that, for bad debts to be eligible for
reimbursement, the hospital must show that (1) the bad debts are related to Medicare covered
services and derived from unpaid deductible and coinsurance amounts, (2) it made reasonable
collection efforts, (3) the debts were actually uncollectible when claimed as worthless, and
(4) sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce their
bad debts by the amount that they recover from previously written off bad debts.

Broughton Hospital

Broughton Hospital (Broughton) is a 313-bed, State-owned psychiatric hospital located in
Morganton, North Carolina and operated by the North Carolina Department of Health and
Human Services, Division of Mental Health, Developmental Disabilities and Substance Abuse
Services (the State). On its hospital cost report for July 1, 2004, through June 30, 2005,
Broughton claimed $720,690 for Medicare inpatient bad debts (bad debts). Because Federal
regulations (42 CFR § 413.89(h)) reduced reimbursement for bad debts by 30 percent in fiscal
year (FY) 2005, Medicare reimbursed 70 percent, or $504,483, of the bad debts claimed by
Broughton on its FY 2005 Medicare cost report.

OBJECTIVE

Our objective was to determine whether Broughton claimed bad debts on its FY 2005 hospital
cost report that were allowable under Medicare regulations and reduced by bad debt recoveries.




                                                i
SUMMARY OF FINDINGS

Broughton properly reported 70 out of our sample of 100 bad debts on its FY 2005 hospital cost
report. The remaining 30 sampled bad debts totaling $38,106 were partially unallowable
because Broughton did not subject the accounts to reasonable collection efforts. The
unallowable portion of these 30 bad debts was $5,762.

Broughton claimed unallowable bad debts because it did not always follow State policies and
procedures outlined in the North Carolina Cash Management Plan. Based on our statistical
sample results, we estimated that Broughton claimed $24,950 for bad debts that were not
reimbursable under Medicare regulations.

Broughton properly reduced bad debts by bad debt recoveries.

RECOMMENDATION

We recommend that Broughton follow State policies and procedures with regard to determining
the patient’s ability to pay and attempting to collect from the patient.

For CMS or a fiscal intermediary to reopen a cost report that has been settled, it must mail a
notice of intent to reopen the cost report within 3 years of the date of the final settlement of the
cost report (42 CFR § 405.1885 (b)). Because the final settlement for Broughton’s FY 2005 cost
report occurred on October 12, 2006, the 3-year period to issue a notice of intent to reopen has
expired. Accordingly, we are not recommending that the fiscal intermediary reopen the cost
report and recoup the excess reimbursement that resulted from the errors.

STATE COMMENTS

The State concurred with our findings and listed the actions it is taking in response to our
recommendations.

The State’s comments are included in their entirety as Appendix C.




                                                 ii
                                                  TABLE OF CONTENTS 


                                                                                                                                       Page


INTRODUCTION..........................................................................................................................1


          BACKGROUND .................................................................................................................1 

              Medicare Fiscal Intermediaries and Administrative Contractors ............................1 

              Medicare Bad Debt Policy.......................................................................................1 

              Broughton Hospital ..................................................................................................2              


          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2 

               Objective ..................................................................................................................2 

               Scope .......................................................................................................................2 

               Methodology ...........................................................................................................2           


FINDINGS AND RECOMMENDATIONS ................................................................................3 


          ACCOUNTS NOT SUBJECTED TO REASONABLE COLLECTION EFFORTS..........3 


          CONCLUSION....................................................................................................................4 


          RECOMMENDATION .......................................................................................................5 


          STATE COMMENTS .........................................................................................................5               



APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE COMMENTS




                                                                    iii
                                            INTRODUCTION 


BACKGROUND 


The Centers for Medicare & Medicaid Services (CMS) is the Federal agency within the U.S.
Department of Health & Human Services that administers Federal Medicare program and
provides Federal oversight of State Medicaid programs.

Medicare Fiscal Intermediaries and Administrative Contractors

CMS contracts with Medicare fiscal intermediaries1 and administrative contractors to, among
other things, process and pay claims submitted by Medicare providers. Fiscal intermediary and
Medicare administrative contractor responsibilities include determining reimbursement amounts,
conducting reviews and audits, and safeguarding against fraud and abuse. Fiscal intermediaries
and Medicare administrative contractors use the Medicare cost report for final settlement of
Medicare reimbursement with providers.

Medicare Bad Debt Policy

Section 1813 of the Social Security Act (42 U.S.C. § 1395e) mandates that beneficiaries should
share in defraying the costs of inpatient care through paying various deductibles and coinsurance
amounts. When Medicare patients do not pay these deductibles and coinsurance amounts,
hospitals incur Medicare bad debts. Medicare bad debts are amounts considered to be
uncollectible from accounts and notes receivable created or acquired in providing services for
Medicare patients. Hospitals claim reimbursement for these bad debts on their annual Medicare
cost reports.

The Medicare program reimburses hospitals for bad debts associated with uncollectible
Medicare deductible and coinsurance amounts if the bad debts meet Medicare reimbursement
criteria. Federal regulations (42 CFR § 413.89(e)) provide that, for bad debts to be eligible for
reimbursement, the hospital must show that (1) the bad debts are related to Medicare covered
services and derived from unpaid deductible and coinsurance amounts, (2) it made reasonable
collection efforts, (3) the debts were actually uncollectible when claimed as worthless, and
(4) sound business judgment established there was no likelihood of recovery at any time in the
future. Furthermore, Federal regulations (42 CFR § 413.89(f)) require hospitals to reduce their
bad debts by the amount that they recover from previously written off bad debts.

The Provider Reimbursement Manual (PRM) (CMS Pub. No. 15-1, chapter 3, § 312) allows for
a hospital to write off a bad debt without collection efforts if the hospital determines the patient
to be indigent. In such cases, hospitals are required to determine that no source other than the
patient would be legally responsible for the patient’s medical bill, including Medicaid for

1
 Effective October 1, 2005, Congress amended the Social Security Act to require that CMS contract with Medicare
administrative contractors instead of fiscal intermediaries (Part A) and carriers (Part B) by October 2011. See
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (P.L. No. 108-173 § 911), Social
Security Act §§ 1816 and 1842, and 42 U.S.C. §§ 1395h, 1395u, and 1395kk-1.



                                                       1

Medicaid-eligible patients, unless the services were categorically precluded from Medicaid
reimbursement by Federal statute.

Broughton Hospital

Broughton Hospital (Broughton) is a 313-bed, State-owned psychiatric hospital located in
Morganton, North Carolina and operated by the North Carolina Department of Health and
Human Services, Division of Mental Health, Developmental Disabilities and Substance Abuse
Services (the State). As a hospital that is primarily engaged in providing diagnosis and treatment
of persons with mental diseases, Broughton is considered an institution for mental diseases
(IMD). On its hospital cost report for July 1, 2004, through June 30, 2005, Broughton claimed
$720,690 for Medicare inpatient bad debts (bad debts). Because Federal regulations (42 CFR
§ 413.89(h)) reduced reimbursement for bad debts by 30 percent in fiscal year (FY) 2005,
Medicare reimbursed 70 percent, or $504,483, of the bad debts claimed by Broughton on its FY
2005 Medicare cost report.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Broughton claimed bad debts on its FY 2005 hospital
cost report that were allowable under Medicare regulations and reduced by bad debt recoveries.

Scope

Broughton claimed a total of $720,690 in bad debts on its FY 2005 hospital cost report. Our
review included $718,339 of this total. We limited our review of Broughton’s internal controls
to those controls applicable to managing and reporting its bad debts.

We conducted our fieldwork at the State offices in Raleigh, North Carolina, and at Broughton in
Morganton, North Carolina.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       held discussions with CMS officials regarding Medicare bad debt program guidance;

       evaluated Broughton’s policies and procedures regarding the collection of deductibles
        and coinsurance amounts;

       obtained a list of bad debts claimed in FYs 2004, 2005, and 2006;

       verified that Broughton claimed no duplicate bad debts on its FY 2005 cost report;


                                                2

   	 validated the population of FY 2005 bad debts written off;

   	 reviewed the accuracy and completeness of bad debt recoveries reported by Broughton
      during FY 2005;

   	 selected and reviewed a random sample of 100 bad debts totaling $194,875 (Appendix
      A);

   	 reviewed the patient accounting financial records, Medicare remittance documents, and
      collection activity records for the 100 bad debts selected in the sample; and

   	 used the Office of Inspector General, Office of Audit Services statistical software to
      estimate the number and dollar value of unallowable bad debts (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Broughton properly reported 70 out of our sample of 100 bad debts on its FY 2005 hospital cost
report. The remaining 30 sampled bad debts totaling $38,106 were partially unallowable
because Broughton did not subject the accounts to reasonable collection efforts. The
unallowable portion of these 30 bad debts was $5,762.

Broughton claimed unallowable bad debts because it did not always follow State policies and
procedures outlined in the North Carolina Cash Management Plan. Based on our statistical
sample results, we estimated that Broughton claimed $24,950 for bad debts that were not
reimbursable under Medicare regulations.

Broughton properly reduced bad debts by bad debt recoveries.

ACCOUNTS NOT SUBJECTED TO REASONABLE COLLECTION EFFORTS

Federal regulations (42 CFR § 413.89(e)(2)) state that, for a bad debt to be allowable, “[t]he
provider must be able to establish that reasonable collection efforts were made.” In addition, the
PRM (CMS Pub. No. 15-1, chapter 3, § 310.2) states that “[i]f after reasonable and customary
attempts to collect a bill, the debt remains unpaid more than 120 days from the date the first bill




                                                 3

is mailed to the beneficiary, the debt may be deemed uncollectible.” The PRM (Pub. No. 15-1,
chapter 3, § 310.B) requires that the provider’s collection efforts be documented in the patient’s
file.

According to the PRM (CMS Pub. No. 15-1, chapter 3, § 312), a hospital may write off a bad
debt without collection efforts if the patient is determined by the hospital to be indigent.
Otherwise, some collection efforts are required. The patient’s file should, however, “contain
documentation of the method by which indigence was determined in addition to all backup
information to substantiate the determination.” As an IMD, Broughton was not required to bill
Medicaid for Medicaid eligible indigent patients aged 22 to 64 because Federal law2 precludes
Medical Assistance coverage for services provided to these individuals.3

The North Carolina Cash Management Plan requires hospitals to calculate a patient’s ability to
pay (ATP) based on several factors, including the patient’s income, expenses, and property
ownership. Under this policy, the hospital must try to collect the ATP amount, but may
immediately write off the remainder of the patient’s balance without collection efforts. This
approach amounts to a determination of indigence for the portion that is immediately written off
and complies with the PRM (CMS Pub. No. 15-1, chapter 3, § 312) cited above.

For 30 bad debts totaling $38,106, Broughton considered the accounts to be entirely
uncollectible based on patient indigence and, consequently, made no collection efforts on these
claims. However, Broughton did not sufficiently document the basis for considering the patients
indigent. For 25 of these accounts, Broughton wrote off the accounts without collection efforts
because they assumed patients’ inability to pay without sufficient documentation that the patients
could not pay. For the remaining 5 accounts, Broughton wrote off the accounts without
collection efforts because the Social Security Administration was sending the patients’ checks to
persons other than the patients. The unallowable portion of these 30 bad debts totaled $5,762,
which represents the sum of the calculated ATP amounts.

CONCLUSION

Our sample review identified 30 bad debts totaling $38,106 that were partially unallowable
because those amounts were not subjected to reasonable collection efforts. The unallowable
portion of these bad debts totaled $5,762. Based on these results, we estimated that Broughton
claimed 130 such bad debts on its cost report, representing $24,950 in unallowable bad debts,
and received $17,465 in related reimbursement. (See Appendix B for details on our sample
results and estimates.) Broughton claimed unallowable bad debts because it did not always
follow State policies and procedures outlined in the North Carolina Cash Management Plan.




2
    Social Security Act, § 1905(a)(1), (14), (16); 42 U.S.C. § 1396d(a)(1), (14), (16); 42 CFR § 435.1008(a)(2).
3
    Of the 100 sampled patients, 96 were aged 22 to 64, and the remaining 4 were not Medicaid eligible.


                                                            4

RECOMMENDATION

We recommend that Broughton follow State policies and procedures with regard to determining
the patient’s ability to pay and attempting to collect from the patient.

For CMS or a fiscal intermediary to reopen a cost report that has been settled, it must mail a
notice of intent to reopen the cost report within 3 years of the date of the final settlement of the
cost report (42 CFR § 405.1885 (b)). Because the final settlement for Broughton’s FY 2005 cost
report occurred on October 12, 2006, the 3-year period to issue a notice of intent to reopen has
expired. Accordingly, we are not recommending that the fiscal intermediary reopen the cost
report and recoup the excess reimbursement that resulted from the errors.

STATE COMMENTS

The State concurred with our findings and listed the actions it is taking in response to our
recommendations.

The State’s comments are included in their entirety as Appendix C.




                                                 5

APPENDIXES

                                                                                      Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare Part A bad debts that Broughton Hospital (Broughton)
claimed on its fiscal year (FY) 2005 hospital cost report.

SAMPLING FRAME

The North Carolina Health and Human Services Controller’s office provided us with a Microsoft
Excel file containing all of Broughton’s FY 2005 Medicare Part A bad debt accounts. The file
contained 653 different accounts totaling $720,690. We sorted the spreadsheet in descending
order and created two groups—those bad debts that were less than $500 and those bad debts that
were $500 or greater. There were 220 accounts totaling $2,351 that had balances ranging from
$456 to a negative balance of –$829. We excluded from our sampling frame all of these accounts
with a balance less than $500. The sampling frame was the remaining 433 accounts totaling
$718,339 that were $500 or greater.

SAMPLE UNIT

The sample unit was a “Medicare Part A bad debt account.” A “Medicare Part A bad debt
account” is the deductible and/or coinsurance from a patient’s Medicare remittance advice not
collected after reasonable efforts to collect have been made.

Because the facility billed and was paid by Medicare on a monthly basis for patients that were in
for multiple months, the deductible and/or coinsurance from each remittance advice was its own
Medicare Part A bad debt account (i.e., any given patient could account for multiple sampling
units for the same stay).

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 Medicare Part A bad debt accounts.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.
                                                                                      Page 2 of 2


METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered our sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the number and dollar value of
unallowable bad debts claimed during FY 2005.
            APPENDIX B: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS


                                                            No. of        Value of
   Frame     Value of                      Value of
                        Sample Size                       Unallowable   Unallowable
    Size     Frame                         Sample
                                                           Bad Debts     Bad Debts


    433     $718,339           100         $194,875              30       $5,762


ESTIMATES

                  Estimated Value of Unallowable Bad Debts
            (Limits Calculatedfor a 90-Percent Confidence Interval)
                                      Estimated
                                                      Estimated No.
                                       Value of
                                                      of Unallowable
                                     Unallowable
                                                         Bad Debts
                                      Bad Debts
              Point Estimate           $24,950             130
              Lower limit              $16,964             102
              Upper limit              $32,936             162
                          North Carolina Department of Health and Human Services 

                                 2001 Mail Service Center • Raleigh, North Carolina 27699-2001 

                                             Tel 919-733-4534 • Fax 919
                                                                      919--715-4645 

Beverly Eaves Perdue, Governor                                                                         Lanier M. Cansler, Secretary
                                                         January, 11,2011



      Mr. Peter J. Barbera 

      Regional Inspector General for Audit Services 

      US DHHS Office ofIofIn nspector General 

      61 Forsyth Street SW 

      Suite 3T41 

      Atlanta, GA 30303 



      Re :   Review of Medicare Part A Bad Debts at Broughton Hospital for Fiscal Year Ended June 30, 2005
             eIN A-04-09-04038


      Dear Mr. Barbera:

      The North Carolina Department of Health and Human Services (NCDHHS) received your December 3, 2010
      letter and the draft report entitled "Medicare Part A Bad Debts at Broughton Hospital for Fiscal Year Ended
      June 30, 2005" [Audit A-04-09-04038].

      Jhe recommendation was for the State to:

      • 	 We recommend that Broughton follow State policies and procedures with regard to determining the
          patient's ability to pay and attempting to collect from the patient.

      For CMS or a fiscal intermediary to reopen a cost report that has been settled, it must mail a notice of intent to
      reopen the cost report within 3 years of the date of the fma1 settlement of the cost report (42 CFR § 405.1885
                                                                    settlemen
      (b)). Because the fmal settlement for Broughton's FY 2005 cost report occurred on October 12,2006, the 3-year
      period to issue a notice of intent to reopen has expired. Accordingly, we are not recommending that the fiscal
      intermediary reopen the cost report and recoup the excess reimbursement that resulted from the errors.

      DHHS Response: The Department concurs with the finding in Report Number A-04-09-04038 that Broughton
      Hospital claimed unallowable bad debts because it did notnotfollow
                                                                  follow State policies and
                                                                                        andprocedures
                                                                                            procedures outlined in the
      North Carolina Department of Health and Human Services (DHHS) Cash Management Plan. The DHHS
      Controller's Office Accounts Receivable Central Billing Office and Broughton Hospital Patient Relations
      Office has taken corrective action by reviewing referenced policies and procedures to ensure that adequate
     financial information is gathered to support the Ability to Pay (ATP) documentation.




                                  Location:: 101 Blair Drive • Adams Building· Raleigh, N.c. 27603 

                                  Location
                                          An Equal Opportuni
                                                   Opportunity
                                                             ty / Affirmative Action Employer 

 Mr. Peter J. Barbera 

 Audit A-04-09-04038 

 January 11,2011
 Page 2 of2


 As indicated in the Cash Management Plan, the unpaid difference between the patient liability and the ATP
 amount is the "contractually compromised" amount under NC General Statute 143-118 or an indigency
 allowance that is written-off the account. Hospital management has agreed that due diligence to accurately
 determine and document ability to pay is absolutely imperative for all accounts receivable deemed selfpay.
 Furthermore, the Department is reviewing the current ATP determination methodology to ascertain a most
 reasonable and effective approach for ATP determination is being utilized by Patient Relations Offices in NC
 DHHS Healthcare Facilities.

 Please contact Monica Hughes at (919) 855-3720 if you have any questions.


 Sincerely,


q~~. ~a-L
 cc: 	 Dan Stewart, CPA 

       Eddie Berryman, CPA 

       Laketha M. Miller, CPA 

       Larry Huffman 

       Leigh Ann Kerr 





          Location: 101 Blair Drive. Adams Building. Dorothea Dix Hospital Campus. Raleigh, N.C. 27603 

                                An Equal Opportunity / Affinnative Action Employer 

